<html>
<title> - OVERSIGHT OF THE LIBRARY OF CONGRESS' STRATEGIC PLAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




          OVERSIGHT OF THE LIBRARY OF CONGRESS' STRATEGIC PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2017

                               __________

      Printed for the use of the Committee on House Administration







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













                       Available on the Internet:
                    http://www.govinfo.gov/congress/
                    

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-519                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

 
          OVERSIGHT OF THE LIBRARY OF CONGRESS' STRATEGIC PLAN

                              ----------                              


                        WEDNESDAY, JULY 26, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:01 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Smith, 
Loudermilk, and Brady.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Cole Felder, Deputy 
General Counsel; Rob Taggart, Legislative Clerk; Matt Field, 
Professional Staff; Erin McCracken, Communications Director; 
Jamie Fleet, Minority Staff Director; and Khalil Abboud, 
Minority Deputy Staff Director.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing, examining the 
future of the Library of Congress. The hearing record will 
remain open for 5 legislative days so Members may submit any 
materials they wish to be included. A quorum is present so we 
may proceed.
    First, I would like to thank our witness for taking time 
out of her very busy schedule to be with us today. In 1896, the 
Joint Committee on the Library held a series of hearings to 
discuss the future direction of the Library of Congress. 
Historically housed in the U.S. Capitol, the Library's new 
Jefferson Building was nearing completion, and Members desire 
to learn what the Librarian at the time, Mr. Ainsworth Rand 
Spofford, envisioned for the Library.
    Dr. Hayden, you have been at the Library for a year now. It 
is hard to believe that it has gone by this fast. It is only 
appropriate that we now discuss with you your vision for the 
Library of Congress.
    The Library of Congress' current strategic plan entitled 
``Fiscal Year 2016 through Fiscal Year 2020, Serving the 
Congress and the Nation,'' was drafted as you were coming 
onboard. There is some concern that this document is a 
placeholder, as there is an initiative underway under your 
leadership to which the Library is identifying and implementing 
a new set of priorities.
    It is our understanding the Library's resources will be 
aligned around these new priorities. So it is a bit unclear 
what role these priorities will play in respect to the current 
strategic plan and whether it will replace, supplement, or 
simply add to the current plan. If these new priorities are 
intended to leave you in the Library, the Committee will want 
to ensure that benchmarks and measurements are now in place to 
measure that progress.
    As Librarian, you have been charged with a great task. The 
Library of Congress serves as the largest library in the world, 
maintaining more than 164 million items in its collection. It 
houses the Copyright Office, which registered more than 414 
copyright claims in Fiscal Year 2016.
    The Library is also home to the National Library Service 
for the Blind and Physically Handicapped, which according to 
the Library, in Fiscal Year 2016 provided an amazing 22 million 
copies of braille and recorded books and magazines to more than 
800,000 individuals. These are just a few of the Library's 
vital roles and the constituencies that you and the Library 
serve.
    We all appreciate the historic accomplishments and the 
mission of the Library of Congress, and seek its very best as a 
steward of the hard earned taxpayer dollars, as it serves 
Congress and the American people in the decades to come.
    Dr. Hayden, I want to thank you for returning to us today. 
I know you testified briefly before this Committee in February 
and again last month on the Library's IT challenges. I believe 
the Library is at a critical juncture. We must ensure that the 
Library remains true to its core mission, while recognizing the 
demands of the 21st century. It is a difficult balance, but I 
am confident that you are up to the challenge and that this can 
be done. And I look forward to hearing from you on these 
efforts.
    I would now like to recognize my colleague and the Ranking 
Member of this Committee, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    And I want to thank Chairman Harper for calling this 
hearing today, and thank Dr. Hayden for appearing before us.
    Dr. Hayden has made great strides in improving Library 
operations in her short tenure as the Librarian of Congress. 
From her progress in improving Library-wide technology 
infrastructure and the ongoing modernization of the Copyright 
Office, the Library is a better place today than it was a year 
ago, and we have Dr. Hayden to thank for that.
    Today, I look forward to hearing from Dr. Hayden about how 
the Library plans to continue improving its operations and its 
service to Congress through the strategic planning process.
    One of the Library's core mission of fostering 
relationships with local libraries is near and dear to my 
heart. The Free Library of Philadelphia system enjoys a close 
and productive relationship with the Library of Congress, and I 
hope that we can arrange our visit to the Darby Public Library, 
which is the oldest library in the Nation for some point in the 
fall.
    I will have a longer statement for the record, but for now, 
I look forward to Dr. Hayden's testimony and assisting the 
Library of Congress in any way I can to ensure that our 
Nation's treasures can serve generations for years to come.
    And I yield back.
    The Chairman. The gentleman yields back. Thank you, Mr. 
Brady.
    Any other Member wish to be recognized for the purposes of 
an opening statement?
    Seeing none, I will now introduce our witness, no stranger 
to this Committee, and always welcome, and enjoy having you 
back.
    Dr. Carla Hayden was sworn in as the 14th Librarian of 
Congress on September 14, 2016. Her appointment to this 
position also marked the first time our Nation's Library has 
been led by a woman and an African American.
    Dr. Hayden is a librarian's librarian. Dedicating her 
entire career to pursuing the accessibility of libraries in 
communities.
    In her brief time leading the Library, Dr. Hayden has 
demonstrated her commitment to continuing the tradition of 
collecting, preserving, and making available a vast collection 
of educational resources, and protecting these collections for 
future generations. It is no easy task, but we greatly 
appreciate your initiatives and your service, and we look 
forward to hearing from you today.
    And the Committee welcomes you, Dr. Hayden. And we now 
recognize you for the purposes of an opening statement for 5 
minutes.

  STATEMENT OF HON. DR. CARLA D. HAYDEN, LIBRARIAN OF CONGRESS

    Ms. Hayden. Thank you. And good morning, Chairman Harper, 
Ranking Member Brady, and Members of the Committee. And thank 
you for inviting me to provide testimony on strategic planning 
at the Library of Congress.
    I first want to thank this Committee for its continued 
support and the interest you have shown in your Library. 
Congress created this agency 217 years ago, providing in one 
place an enduring legacy of knowledge and cultural heritage for 
Members of Congress and the American people. And I am proud to 
continue that legacy today as Librarian. Nearly 1 year into my 
tenure, I continue to be inspired by the institution and the 
commitment of its staff.
    It is a dynamic time for the Library of Congress, and we 
are poised for modernization and innovation. I have laid out a 
vision to expand access to our many resources so that treasures 
and services are more readily available online for users who 
cannot visit Washington, D.C. Everyone, we hope, will have a 
sense of ownership and pride in this national treasure.
    As I testified earlier this year, we are moving forward to 
develop a comprehensive digital strategy as we rethink the use 
of technology to fulfill our mission. The digital strategy will 
support and be informed by Library-wide strategic planning. 
Achieving this vision means strengthening fundamentals, the 
most important of which is strategic planning. My approach is 
informed by my many years of professional experience, leading 
results-oriented institutions as an executive, a board member 
and even as an instructor in graduate library school programs.
    The Library's current strategic plan drafted in October of 
2015, echos previous plans in defining a 5-year framework for 
our operations. Unlike its predecessors, though, the plan was 
created to be a living document, serving as a valuable baseline 
for additional strategic planning, and I am happy to share that 
new work is underway.
    While the central tenets of our service mission do not and 
will not change, our approach must change over time. The 
Library requires a strategic plan that is dynamic, forward 
looking, and reinforced with measurable outcomes. It must also 
increase coordination across the Library's service units, while 
still supporting mission-specific goals of each unit.
    Ultimately, the new strategic plan will be completed at the 
end of Fiscal Year 2018, and the new plan will put forward the 
vision for the Library's future and set a structure needed to 
achieve that future. And this is a top priority.
    As such, I have elevated the Library's strategic planning 
office in our organizational structure. The director of that 
office, Dianne Houghton, now reports directly to me.
    In charting a path for long-term future success, we are 
examining improvements more broadly in our planning processes. 
For example, we are strengthening our approach to internal 
controls and risk management to anticipate and, hopefully, head 
off coming challenges.
    And in addition, the Library has made good progress to 
improve performance management with the launch of a system in 
late 2016 to track accomplishments mapped to the current 
strategic plan. And we are now in the first stages of a new 
strategic planning initiative to determine the Library's vision 
and priorities going forward and then to redevelop the 
strategic plan as a roadmap. We call this work Envisioning 
2025. The Library is moving rapidly to complete the envisioning 
work and we are exploring trends in our environment and 
gathering internal and external input, among other components.
    I look forward to sharing this work with you and your 
staff, and sharing what we are learning. And I seek your 
guidance in determining our direction. The feedback we receive 
from Congress will be a central part of our progress and will 
help ensure that we are responsive to your priorities.
    In closing, the Library is well on the way to providing a 
roadmap for the future. And I thank you for providing me the 
opportunity to testify on this important topic, strategic 
planning, and I am happy to take your questions.
    [The statement of Ms. Hayden follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
 
    
    The Chairman. Thank you, Dr. Hayden.
    And I will now recognize myself for 5 minutes for the 
purposes of asking you some questions on this.
    What is the--I am trying to obviously figure out the 
strategic plan that was for Fiscal Year 2016 through 2020, and 
now your plan, Envisioning 2025. How do those work together? 
Explain that to me a little better.
    Ms. Hayden. The Library's current strategic plan for 2016 
to 2020 outlines and reinforces the Library's commitment to its 
core mission, to serve Congress and the American people. And it 
included seven strategies that are really directed to giving 
guidance to the action plans that the Library has been working 
with and we are measuring right now. For instance, using 
technology as a tool, enhancing the skills of our staff 
members. And what the work that is being done now will help us 
do is to reenvision and revamp some of those basic strategies 
with some information that we are gathering, including more 
input from Congress and looking at the latest techniques as 
well in strategic planning.
    The Chairman. Do you consider these two documents in any 
way to be in conflict with one another----
    Ms. Hayden. Oh, no.
    The Chairman [continuing]. Or supplement each other?
    Ms. Hayden. They actually--and what I think--I have to tell 
you that I am just going to say right now that I am so pleased 
that you are interested in strategic planning. In my 
professional experience, I know that that is not always the 
most exciting topic.
    The Chairman. Sure.
    Ms. Hayden. But it is a vital operational management tool. 
And so the Library has had a history of strategic planning 
since the 1970s in earnest. And so this plan is going to be a 
continuation of that tradition of trying to look at what are 
the issues of the day and even thinking about what the issues 
might be in the next 3 to 5 to 10 years that will allow us to 
be considered as we try to take this Institution that was 
established in 1800 into more current times.
    The Chairman. If I may ask, Dr. Hayden, the 2016 to 2020 
strategic plan and the Envisioning 2025 plan, are these 
available to be viewed on the website?
    Ms. Hayden. Oh, yes. Yes. They are available and we have 
print copies. And we are very pleased that they are providing, 
I think, a way for everyone to at least talk about what is the 
future of the Library of Congress.
    The Chairman. The Envisioning 2025, did that all begin 
under your leadership since you arrived in September of last 
year?
    Ms. Hayden. Well, I mentioned also the Library's new 
strategic planning officer, who is right here. And she--I had 
already--was very pleased at taking the position, actually, to 
know that there had been an emphasis on strategic planning and 
Ms. Houghton had been hired. And so that is when I said, my 
goodness, we have a structure possibly in place to really make 
strategic planning a dynamic. That is why I make the office 
report directly to the Librarian, and so we will be making sure 
that that is a priority.
    The Chairman. Just so that I am clear then, that you see--I 
was going to say you envision--anyway, you see the Envision----
    Ms. Hayden. We have got you.
    The Chairman [continuing]. 2025 being coordinated with, not 
replacing the strategic plan?
    Ms. Hayden. And it can't--it replaces it in terms of 
operations, let's say.
    The Chairman. Okay. Explain that.
    Ms. Hayden. Each strategic plan has a number of action 
items that will give a framework to achieving certain goals. 
And the goals are basically the same--to be more effective, to 
strengthen staff--those basic goals never change. They are tied 
to our mission. And so the action plans--sorry.
    The Chairman. Please, go ahead, Doctor.
    Ms. Hayden. The action plans that will form the new 
strategic plan are going to be the things like make sure in 
Fiscal Year 2020 that all of--and this is the ultimate goal of 
any strategic plan--all of our fiscal appropriation requests 
are tied and measurable to achieving the goals, those types of 
things. So that by 2020, those two things, the fiscal and the 
actions, will meld; that you are not doing anything that isn't 
tied to your ultimate goal of serving Congress and the people.
    The Chairman. And we look forward to working with you on 
both of those items and also in looking at measurable 
benchmarks so we can work together on that.
    And with that, I will recognize the Ranking Member, Mr. 
Brady, for 5 minutes for questions.
    Mr. Brady. Thank you, Mr. Chairman.
    Dr. Hayden, the Congressional Research Service is one 
service unit, which sole customer is the Library of Congress. 
How will the revised strategic plan impact CRS service to 
Congress?
    Ms. Hayden. The CRS mission to serve Congress in the most 
efficient and effective way is really an embedded part of the 
Library's general plan. And the CRS unit has its own strategic 
direction and plan to be very specific about how it will 
achieve that. For instance, making sure that the latest 
technology is employed to serve Congress better, to look at 
staffing patterns. So the CRS strategic plan and action steps 
will be and continue to be directed toward their specific 
mission.
    Mr. Brady. Thank you. And the Veterans History Project has 
been an incredibly successful and popular program. How will the 
revised plan build on the success and enhance the project?
    Ms. Hayden. I am very excited about the progress of the 
Veterans History Project. In fact, we have moved and are 
planning to move the office to the Jefferson Building for more 
visibility. And we have started to implement the Gold Star 
Families recommendations, and our Director of the Veterans 
History Project, Dr. Lloyd, is the first female medic in the 
Army, and she has been making presentations to all types of 
veterans groups. And we are road testing a mobile app that will 
make it easier for veterans to give their oral histories.
    We would like to also expand the program to each State. And 
we would seek Congress' help on that, because we feel that 
reaching out and using local libraries and other institutions 
to be recording studios, basically, will help us get even more 
oral histories. We have over 120,000 now oral histories from 
veterans.
    Mr. Brady. Thank you, Doctor. And thank you for the job 
that you are doing in serving the United States, the people in 
the Library, people who come see you, and the students and, 
naturally again, the veterans.
    Thank you, and I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes for the purpose of 
questions.
    Mr. Walker. Thank you, Mr. Chairman.
    Dr. Hayden, thank you for being with us today. It is always 
a pleasure to see you.
    The Library serves many diverse constituent communities, 
including visiting public, the copyright community, and others. 
How are you gathering proper customer data in order to better 
access user needs, customer accessibility, and satisfaction? 
Can you speak to that?
    Ms. Hayden. Oh, and thank you for asking that, because a 
vital part of any strategic planning effort is to gather data 
and information. So the Library has several mechanisms in terms 
of customer, basically, satisfaction, starting with the mission 
specific units. CRS just recently participated in a Gallup 
survey of Congress and staff members, and that was very 
helpful. And we will be updating that with this strategic 
planning effort, as well as visitor surveys we ask people when 
they come into the different facilities. We also survey 
researchers, and when we are going to do more online that 
people can--you have probably seen at airports, for instance, 
where you exit a flight and they ask you to rate. So we are 
looking at all types of nonobtrusive and voluntary ways that we 
can also get input.
    Mr. Walker. There is a little button as you come out of the 
Dunkin' Donuts in the Longworth Building, and you just hit the 
green button as you go out. Maybe something like that. I am 
just----
    Ms. Hayden. Well, there are a lot of ways.
    Mr. Walker. Yeah, absolutely.
    Ms. Hayden. It is very helpful, though.
    Mr. Walker. Historically, the Library has ascertained most 
of its collections from its copyright authority role. I am sure 
you are aware of that.
    Ms. Hayden. Yes.
    Mr. Walker. There are proposals, though, being discussed to 
move the Copyright Office out of the Library entirely. If that 
were to happen, can you tell me, how would the Library maintain 
its historic collections and acquisitions?
    Ms. Hayden. The historic collection that has actually made 
the Library of Congress the largest in the world is based on 
the 1870 law that required people who are registering for 
copyright of any type to deposit two copies, physical copies of 
those materials. And that has enabled the Library to grow and 
provide materials that would have been fiscally impossible. And 
it was designed to do that.
    And so the opportunity to continue the deposit requirement 
would be vital to continuing that, wherever the Copyright 
Office would reside. The deposit requirement is what is 
essential.
    Mr. Walker. Sure. I can't see the timer from here, but I am 
assuming I maybe have time for another question. As far as 
specifically the cost of this transition, as far as moving it, 
have you done any research or have any idea of the cost of 
that?
    Ms. Hayden. I have not been involved in any of that 
research. I am sure that would be part of a consideration.
    Mr. Walker. All right. Last question here is, in the 
process of searching out for hiring a new Register of 
Copyrights, do you have any update on how we are doing there?
    Ms. Hayden. Oh, yes. The search has paused, waiting for the 
direction from Congress.
    Mr. Walker. Okay. All right. Well, thank you.
    I will yield back to the Chairman at this time. Thank you.
    The Chairman. The gentleman yields back.
    The Chair now recognizes the gentleman from Nebraska, Mr. 
Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman. And thank you, Dr. 
Hayden, for being here. Appreciate your service.
    Let's talk about congress.gov briefly. How would you say 
you are satisfied overall with congress.gov?
    Ms. Hayden. Congress.gov and any technology-based service 
could always improve, and part of our information technology 
plan is to make sure that any type of electronic service that 
we get is secure. That is the number one priority and also very 
responsive. And so we will be continuing to make progress on 
updating and securing these systems.
    Mr. Smith. Okay. So congress.gov 3.5 was recently released. 
Do you anticipate more releases in the future? Can you speak to 
that?
    Ms. Hayden. I would anticipate updates and improvements in 
the technology system. I can't give a definite timeline or .4 
yet.
    Mr. Walker. Okay. How would you say you measure customer 
satisfaction from Congressional clients with congress.gov?
    Ms. Hayden. The Congressional Research Service has a very--
and this is the technical term--robust way of determining 
customer satisfaction, and their customers are, of course, 
Members and staff. And so there are, from what I understand, 
online ways to give input, as well as looking at usage and 
usage patterns.
    Mr. Smith. Okay. Shifting gears just a bit in discussing 
historic legislative data of Congress, where would you say you 
are in making this data accessible? I know there are entire 
decades, over a century in fact, of the Congressional Record 
not accessible by the public. Do you foresee this changing?
    Ms. Hayden. Hopefully, yes. And we also are facing the same 
challenge with the historical records for copyright of 32 
million scanned cards that need to be put into a searchable 
database. And so when you look at the challenges in the world's 
largest library with these special units, Congressional 
Research Service, copyright operation, the challenges of 
technology are great. But we are very pleased that the Chief 
Information Officer, Mr. Barton, has been tackling all of those 
issues and working with the specific units to address their 
technology needs as well. He has now the full support of the 
units.
    Mr. Smith. Okay. Thank you.
    Now, in terms of public programming, how does the Library 
decide which programming to proceed with or which not to 
pursue? Do you have a specific method or process for that?
    Ms. Hayden. We just established a centralized programming 
review committee. Traditionally, the Library, every unit was 
doing specific programming to its unit. Let's say the Middle 
Eastern division, in terms of Library services, if service 
units were doing it. So we are looking at how we coordinate the 
programming and also have a review process to avoid duplication 
and to really make sure that the programming fits the mission 
of the Library. And you will see it, I can say this 
confidently, more programming for the educational community, K 
through 12, working with teachers, and doing more live-
streaming out to districts as well. We have started that with 
the author programs.
    And so we are having--for instance, when a popular author 
is here in Washington, D.C., we make arrangements to have live-
streaming to school libraries and public libraries throughout 
the country. So that will, we hope, give us a broader audience 
and more awareness of the programming.
    Mr. Smith. Do you give specific guidance to curators in 
terms of programming?
    Ms. Hayden. The curators that I mentioned in my opening 
statement, that I continue to be inspired by the staff of the 
Library, the curators and the researchers and the librarians of 
the Library of Congress are literally experts in their field. 
So if they say that there is an author on 18th century French 
literature and how it influences, I--and we all tend to take 
their word for it. And they are very in tuned with the 
researchers or people who might be interested in whatever their 
subject is. And so that is where a lot of the programming comes 
from, those curators. They know their audiences, and they 
really do connect with people who are interested in their 
topics.
    Mr. Smith. Okay. Very good. Thank you.
    I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Georgia, 
Mr. Loudermilk, for 5 minutes.
    Mr. Loudermilk. I thank you, Mr. Harper and Dr. Hayden. I 
appreciate you being here. As you know, I am a frequent user of 
the Library.
    And I would like to follow up with some of the questions 
that Mr. Smith had. I can imagine that your curators and staff 
have a broad range of suggestions for different programs, 
displays, et cetera. Specifically, on like cinematic 
presentations that you do at the Library or at the Culpeper 
facility, do you have a set of standards that you apply to 
decide what is appropriate and what is not appropriate?
    Ms. Hayden. The basic standard is to connect the 
programming with the Library's collections.
    Mr. Loudermilk. Okay.
    Ms. Hayden. That is number one. So, for instance, there is 
a summer film series that the Library is producing. All of the 
films have been films that were selected to be added to the 
National Registry of Films.
    Mr. Loudermilk. Something like the disco----
    Ms. Hayden. That was part of another--in fact, tomorrow, 
the new poet laureate for the Library of Congress will be on 
television talking about that program. So you will be hearing 
more about poetry.
    And the discotheque came out of the selection that the 
Library does every year as well of sound recordings.
    Mr. Loudermilk. Okay.
    Ms. Hayden. And the person who--her song was selected, Ms. 
Gloria Gaynor, I Will Survive, actually saw a great increase in 
interest in that particular song and her career and offered to 
do something for the Library. And what we did was to tie her 
offer of a free concert, she is quite popular, with what is in 
our collection as well that relates to that, related films, 
related fashion, and different things that are in the 
collection.
    Mr. Loudermilk. But when it comes to specific, you know, 
like a concert or like any production, I am sure that there is 
a broad range of suggestions of what you can show or what would 
be available to the public. Is there a specific set of criteria 
that you go by to determine what----
    Ms. Hayden. Yes.
    Mr. Loudermilk [continuing]. May be appropriate and what 
isn't appropriate----
    Ms. Hayden. Yes.
    Mr. Loudermilk [continuing]. For the Library of Congress to 
put its stamp on, let's say?
    Ms. Hayden. Yes. And the number one issue that you look at 
in determining, because with the variety of subjects that the 
Library covers, there--you could program every day, all day.
    Mr. Loudermilk. Right.
    Ms. Hayden. It could be a 24/7 programming machine with 
everything that we cover, from prints and photographs to just 
you name it, at the Library, baseball, football, dance, 
theater, history, everything. So looking at, one, does the 
program suggestion relate to the collection? Second criteria 
would be is it relating to anything going on in the world? You 
know, is there a women's history month? We would bring out all 
of our suffrage materials, which we have a lot of. Black 
history month, we really have a lot on that. Asian American 
history month are there things that you look at.
    But mainly, the main thing that we look at is how can we 
tie in any program to increasing public awareness about the 
collections that we have?
    Mr. Loudermilk. So you really don't have something that you 
look at and say, well, you know, this may tie in, but it really 
wouldn't be appropriate to display?
    Ms. Hayden. We did. When I mentioned that programming 
committee, we are really looking at having a group that 
represents just about every section of the Library, really 
being that deliberative body as well and not just leaving it to 
each----
    Mr. Loudermilk. Do you ever have difficult choices that you 
have to make of whether to do a presentation or not? And if you 
do, do you ever consider running that by the oversight 
committees?
    Ms. Hayden. Oh, sure. That would be--in fact, with the 
strategic planning effort that we are doing now, one of the 
aspects in terms of--and this is an ongoing strategy to serve 
Congress better and to make sure that we do that with our 
central mission--is how to get even more input as we think 
about programming, as we think about other services to get more 
input from Congress. And so I would welcome, and we are 
actually going to be making a formal request to find a way to 
make sure that Congress is involved as well.
    Mr. Loudermilk. Okay. And I thank you.
    And I do have numerous more questions, Mr. Chair, but I 
will submit those for the record because I realize my time has 
expired. And I yield back.
    The Chairman. The gentleman yields back.
    I will now recognize the Vice Chairman of the Committee, 
Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. My apologies for 
walking in late, but I couldn't miss Dr. Hayden.
    And it is always great to see you. I want to say thank you 
again for your assistance with our Springfield, Illinois, 
project that we have been talking about, and I look forward to 
seeing you out there in the upcoming months.
    I know I am going to be able to read some of the testimony 
that you have given already and some of the answers to the 
questions in the record, but I did want to ask something about 
the strategic plan, the 2016 to 2020 strategic plan. It seems 
to me to be a little bit short on some measurable benchmarks 
and, you know, accountability standards in terms of where, you 
know, in measurable terms that you see the Library is going to 
be at the end of this strategic plan.
    Will the Envision 2025 initiative include benchmarks, Dr. 
Hayden?
    Ms. Hayden. Oh, yes, quite a few. And, in fact, we are--we 
have established staff teams, we are calling them tiger teams, 
for all the different areas of possible interest. And one major 
factor is, yes, it would be good to do so-and-so, but how are 
we going to measure it. And what--and who is going to be 
responsible. Sometimes, and I am sure you have probably had 
this experience with strategic plans, they can seem very 
wonderful. We are going to save the world. Okay. How? And who 
is going to be responsible for it?
    And that is a major part that we are putting in the 
fundamentals now for measurement tracking and reporting as 
well, that there will be reporting and people will have to say 
here is how it is. But first, determining how you are going to 
tell if you are successful. And also, how are you going to, of 
course, correct if something is in the yellow zone in that and 
to make it a continuous process.
    Mr. Smith. Well, thank you. And I appreciate you making 
additions to those measurable--making the additions to those 
measurable benchmarks, and as you create these tiger teams, you 
create some goals and measurable opportunities for your team 
over at the LOC.
    How do you intend to shift resources from one program to 
another when you identify that maybe we ought to spend a little 
more over here? So how do you intend to do that and what can we 
as a Committee expect?
    Ms. Hayden. What we hope, and this is the ultimate goal, is 
that the strategic plans and the actions and what you think you 
are doing will align with your fiscal appropriations. And you 
have to, and we are working on that, getting the measurables, 
getting the management, getting that, and then really making 
sure that we are combining that with whatever appropriation 
that we request. And I think that that will be a great day when 
that is totally achieved.
    All too often strategic plans are over here and your fiscal 
appropriations are over here. And they are not tied together, 
and that is what we are working toward.
    Mr. Davis. I appreciate that symbiotic relationship. 
Sometimes we have that problem in Congress too. We have our 
authorizations here and our appropriations there. So hopefully, 
we can work out our issues with our strategic plans when it 
comes to those two issues too.
    Since I came here late, I don't want to be redundant so I 
am going to yield the rest of my time back, but thank you 
again, Dr. Hayden.
    Ms. Hayden. Thank you.
    The Chairman. The gentleman yields back.
    Dr. Hayden, by the way, you did an exceptional job on the 
FOX News Power Player of the Week Sunday. That was very well 
done. Congratulations.
    Also, I wanted to state that I am looking forward very much 
to your visit to Mississippi in August to participate in the 
Mississippi Book Festival. And I will have the privilege of 
interviewing you live on C-SPAN during your trip there. We are 
going to have a great time. We will bring popcorn, maybe not. 
But we will have a great visit, and I think you will enjoy the 
hospitality that you receive. We look forward to having you 
back for that.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witness, which we will forward, and ask the witness to respond 
to as quickly as she can so that her answers may be made a part 
of this record.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

   
    
    The Chairman. Without objection, the hearing is adjourned.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]
</pre></body></html>
